No. 19-1039
In the

Supreme Court of the United States

PENNEAST PIPELINE COMPANY, LLC
PETITIONER,
V.

STATE OF NEW JERSEY, ET AL.
RESPONDENTS,
On Petition For Writ Of Certiorari
To The Third Circuit Court Of Appeals
RESPONDENTS’ SUPPLEMENTAL BRIEF

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that
Respondents’ Supplemental Brief contains 2,915 words, excluding the
parts of the document that are exempted by Supreme Court 33.1(d).
I declare under penalty of perjury that the forgoing is true and
correct.

Date: December 23, 2020
JEREMY M. FEIGENBAUM
Counsel of Record

